, t 09/20/07           15:28 FAX 301 903 4656              CAPITAL REGION                                           0 j002



 SDOEF 1325.8
   (8-89)
  EFG (0790)
                                                                                                              Energy

 United States Government                                                                       Department of Energy


  Memorandum
                                                                                   Audit Report No.: OAS-L-07-23
               DATE.   September 18, 2007
        REPLY TO:      IG-34 (A07TG036)

        SUBJECT:       Evaluation of "The Federal Energy Regulatory Commission's Cyber Security Program-2007"
                 TO: Chairman, Federal Energy Regulatory Commission

                                                                                         evaluation of the Federal
                       The purpose of this report is to inform you of the results o Four
                                                                                                    The evaluation
                       Energy Regulatory Commission's (Commission) cyber security program.                 2007. Our
                       was initiated in May 2007, and our fieldwork was conducted through September
                       methodology is described in the attachment to this report.                                            .

                        INTRODUCTION AND OBJECTIVE

                        The Commission reports that it is constantly improving thl stability, reliability, and
                        security of its information technology (IT) infrastructure and data repositories to help
                        achieve their mission to regulate and oversee energy indusitries in the economic,
                        environmental, and safety interests of the American public. To accomplish this, the
                        Commission estimated that, in Fiscal Year 2007, it spent almost $1 million to protect its
                        $ 26.1 million IT investment from cyber-related threats.

                        As required by the FederalInformation Security Management Act (FISMA) and the
                        Office of Management and Budget (OMB) implementing guidance, the Office of
                        Inspector General performed an annual independent evaluation of the Commission's
                        cyber security program. This evaluation is designed to as:sess the adequacy and
                        effectiveness of information security policies, procedures, and practices, and
                        compliance with FISMA requirements.

                        CONCLUSIONS AND OBSERVATIONS

                        Overall, we continued to note improvements in the Commission's cyber security
                                                                                           to strengthen its
                        program. In the past year the Commission had taken several actions
                        cyber security program. In particular, it:

                            *   Strengthened password management and corrected prior year problems
                                concerning the use of default, blank, or easily guessed passwords;

                            *   Corrected previously reported issues and updated procedures relating to
                                identifying and promptly disabling unused network accounts;
09/20/07   15:29 FAX 301 903 4656                CAPITAL REGION                                           [ 003




                                                                              process and
               *     Implemented a more robust cyber security self-assessment
                     corrected prior year problems in this area; and,

               *     In response to OMB requirements, developed policies and procedures for
                     protecting personally identifiable information.

                                                                                              risk
            During our current evaluation, we noted an issue related to the completion of
            management activities and security planning for a major financial processing system,
            the Management Administrative and Payroll System (MAPS). The Commission
            considers this application critical to its operations and uses it to provide human
            resources services such as payroll, benefits, time and labor functions, as well as
           . financial functions, including general ledger, accounts receivables, and purchasing.
             Although MAPS underwent a significant software upgrade in 2005, officials did not
             initiate action until early 2007 to begin a required reaccreditation of the system.
             Because of the nature of the software upgrade, significanv: changes occurred both in the
             manner in which data was processed and how it was tranimitted - a situation that could
             have potentially introduced security vulnerabilities or increased the risk associated with
             system operation.
             In response to our query regarding MAPS, Commission oificials indicated that they had
             started a comprehensive certification process in January 2007, and have completed a
             number of important parts of the effort. An asset categorization statement had been
              developed, a privacy impact assessment completed, and a self assessment - including a
              contingency plan and configuration plan review - and a security review have been
              performed. Two remaining items, the risk assessment and. system security plan, are
              expected to be completed by September 30, 2007.

            SUGGESTED ACTION

            We suggest that the Executive Director ensure that the ongoing risk assessment and re-
            certification of the MAPS system fully consider the risk posed by the software upgrade
            and modify system controls, if necessary.

            Since no formal recommendations are being made in this letter report, a formal
            response is not required. We appreciate the operation of your staff throughout the
            audit.


                                                    vck       .Hass
                                                  Assistant Inspector General '
                                                    for Financial, Technology, and Corporate Audits
                                                  Office of Audit.Services
                                                  Office of Inspector General

             Attachment

             cc:      Executive Director, FERC
                       Chief of Staff, DOE
                                                          2
09/20/07   15:29 FAX 301 903 4656               CAPITAL REGION                                          16004




                                                                                        Attachment

                                      SCOPE AND METHODOLOGY


           SCOPE AND METHODOLOGY
                                                                                              Energy
           The evaluation was performed between May and September 2007 at the Federal
                                                                                        Specifically,
           Regulatory Commission (Commission) Headquarters in Washington, DC.
                                                                                unclassified cyber
           we performed an evaluation of the Commission's Fiscal Year 2007                   controls
           security program. The evaluation included a review of gcaeeral and application
                                                                                        software
           in areas such as entity-wide security planning, access controls, application
                                                                             continuity.  Our work
           development, change controls, segregation of duties and service
                                                                                            exploited
           did not include a determination of whether vulnerabilities found were actually
           and used to circumvent existing controls.

           To evaluate the adequacy and effectiveness of the Commission's information security
           policies and practices, we:

                   * Reviewed the Commission's overall cyber security program to evaluate the
                     adequacy and effectiveness of information security policies, procedures, and
                     practices, and compliance with the requirements o:fthe FederalInformation
                     Security Management Act (FISMA);

               *     Reviewed Federal statutes and guidance applicable to ensuring the effectiveness
                     of information security controls over information resources supporting Federal
                     operations and assets such as FISMA guidance and Circular A-130 Appendix
                     III, and National Institute of Standards and Technology standards and guidance;

                *    Assessed controls over network operations to dete:rmine the effectiveness
                     related to safeguarding information resources fronm unauthorized internal and
                     external sources;

                *    Evaluated the Commission in conjunction with its annual audit of the Financial
                     Statements, utilizing work performed by KPMG, LLP (KPMG), the Office of
                     Inspector General's (OIG) contract auditor. KPMG's efforts included analysis
                     and testing of general and application controls for systems as well as
                     vulnerability scanning of networks; and,

                *     Analyzed OIG reports issued between 2004 and 2006 and reviewed other audits
                      and evaluations performed by Government Accountability Office and the Office
                      of Management and Budget.
                                                                                                and
            We evaluated the Commission's implementation of the Government Performance
                                                                                          to
            Results Act of 1993 and did not identify any performance measures specific
                                                          solely on comnputer-processed  data to
            unclassified cyber security. We did not rely
            satisfy our objectives. However, computer assisted audit tools  were used  to perform
            probes of various networks and devices. We validated the results of the scans by
                                                        3
09/20/07   15:29 FAX 301 903 4656                CAPITAL REGION             _i                             005




                                                                               and performed other
           confirming the weaknesses disclosed with Commission of icials
                                                                     cor ipetence of the data produced
           procedures to satisfy ourselves as to the reliability and
           by the tests.
                                                                                      Government
           The evaluation was conducted in accordance with generally accepted
                                                      and  included  tents of  internal controls and
           auditing standards for performance audits
                                                                            to  satisfy our objective.
           compliance with laws and regulations to the extent necessary
           Accordingly, we assessed internal controls regarding the development and
                                                                                limited, it would not
           implementation of automated systems. Because our review was
                                                                                          existed at the
           necessarily have disclosed all internal control deficiencies that may have
           time of our evaluation.

           Commission officials waived the exit conference.




                                                            4
